         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Interagency Agreements to
       Use Other Agencies’ Contracts
       Need Additional Oversight
       Report No. 2007-P-00011

       March 27, 2007
Report Contributors:             John Trefry
                                 Nancy Dao
                                 Doug LaTessa




Abbreviations

DM           Decision Memorandum
DOE          U.S. Department of Energy
Treasury     U.S. Department of the Treasury
EPA          U.S. Environmental Protection Agency
FAR          Federal Acquisition Regulation
GAD          Grants Administration Division
GAO          U.S. Government Accountability Office
IAC          Interagency Contract
IAG          Interagency Agreement
IGCE         Independent Government Cost Estimate
OAM          Office of Acquisition Management
OARM         Office of Administration and Resources Management
OFPP         Office of Federal Procurement Policy
PO           Project Officer
                       U.S. Environmental Protection Agency                                              2007-P-00011

                                                                                                        March 27, 2007

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review             Interagency Agreements to Use Other
The U.S. Government
                                   Agencies’ Contracts Need Additional Oversight
Accountability Office has
designated management of            What We Found
interagency contracting a
Government-wide high-risk          While EPA has improved some interagency contracting processes, we found that
area since 2005. We sought to      the Agency entered into some interagency contracts without meeting all
determine whether the U.S.         requirements. EPA often entered into interagency contracts without conducting
Environmental Protection           cost reasonableness assessments, or identifying alternatives, such as determining
Agency (EPA) effectively           whether EPA’s in-house acquisition staff should acquire the services or products
follows interagency                for them. As a result, we found interagency contracts where EPA could have
contracting requirements by        saved money if it had awarded the contracts directly through its in-house
ensuring products and services     contracting staff. This occurred because (1) project officers preferred the speed
meet quality, cost, and            and convenience of interagency contracts, received inadequate training, and lacked
timeliness requirements.           sufficient guidance; and (2) EPA provided limited oversight.
We also looked into whether
opportunities exist to improve
                                   We found other opportunities for EPA to improve its processes for managing
EPA’s processes for managing
interagency contracts.             interagency contracts. EPA needs to ensure that newly assigned project officers to
                                   existing interagency contracts receive a complete file for effective contract
Background                         management. Also, EPA did not collect data on the fees paid to other agencies for
                                   interagency contracts, so costs and benefits could not be determined.
EPA defines an interagency
agreement as a written             In addition, we noted positive aspects of the interagency contracting process.
agreement between Federal          These involved ordering work within the scope of the existing agreement; project
agencies under which goods or      officers being satisfied with the quality and timeliness of services; and, in most
services are provided.             cases, contractor invoices having sufficient information for approval.
Interagency contracts are
contracts awarded by one            What We Recommend
Federal agency but available
to others for use, generally for   We recommend that the Assistant Administrator for the Office of Administration
a fee.                             and Resources Management:
                                       •	 Provide guidance to project officers on conducting cost reasonableness
                                           assessments and identifying alternatives before using IAG contracts.
                                       •	 Strengthen training to include how to develop independent government
                                           cost estimates or other appropriate cost information, conduct cost
For further information,                   reasonableness assessments, and identify alternatives.
contact our Office of
Congressional and Public               •	 Ensure that the Grants Administration Division requires that the IAG
Liaison at (202) 566-2391.                 decision memorandum better explains why an IAG is more cost effective,
                                           and include an evaluation of cost reasonableness assessments in reviews.
To view the full report,
click on the following link:       EPA generally agreed with our recommendations, but deferred action pending the
www.epa.gov/oig/reports/2007/      issuance of Government-wide guidance by the Office of Federal Procurement
20070327-2007-P-00011.pdf          Policy. EPA has been informed that a guidance document will be issued in the
                                   next several months on roles and responsibilities on interagency contracting.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL




                                         March 27, 2007

MEMORANDUM

SUBJECT:               Interagency Agreements to Use Other Agencies’ Contracts
                       Need Additional Oversight
                       Report No. 2007-P-00011


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Luis A. Luna
                       Assistant Administrator
                       Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $287,000.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0899
or heist.melissa@epa.gov; or Carl Jannetti, the Product Line Director for Contract Audits, at
(215) 814-5800 or jannetti.carl@epa.gov.
                     Interagency Agreements to Use Other Agencies’ Contracts 

                                    Need Additional Oversight 





                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1         


              Purpose ..........................................................................................................    1             

              Background ....................................................................................................       1             

              Noteworthy Achievements..............................................................................                 3             

              Scope and Methodology.................................................................................                3             


 2	   Interagency Agreements to Use Other Agencies’ Contracts 

      Need Additional Oversight ...................................................................................                 4         


              Some IACs Lack Cost Reasonableness Determinations ...............................                                     4

              Alternatives Not Always Identified ..................................................................                 5

              IACs Chosen for Speed and Convenience.....................................................                            5

              Impacts of IAC Speed and Convenience .......................................................                          6

              IAC Guidance and Training Limited ...............................................................                     6

              Unnecessary IACs Cost EPA Money .............................................................                         7

              Interagency Contract Inappropriately Awarded ..............................................                           8

              PO Changes Lack Continuity .........................................................................                  8

              Fees Paid to Servicing Agencies Not Identified..............................................                          8

              IAC Services and Processes Improved ........................................................                          9

              Recommendations .........................................................................................             9             

              Agency Comment and OIG Evaluation ..........................................................                         10 


 Status of Recommendations and Potential Monetary Benefits.................................                                        11     




Appendices
 A    Details on Scope and Methodology.....................................................................                        12     


 B    EPA Response to Draft Report ............................................................................                    13     


 C    Distribution ............................................................................................................    16     

                                Chapter 1
                                Introduction
Purpose
          Interagency contracts (IACs) are contracts awarded by one Federal agency but
          available to others for use, generally for a fee. We conducted this review to
          determine whether:

             •	 The U.S. Environmental Protection Agency (EPA) effectively follows
                interagency contracting requirements by ensuring products and services
                meet quality, cost, and timeliness requirements; and
             •	 Opportunities exist to improve EPA’s processes for managing IACs.

Background
          According to Federal Acquisition Regulation (FAR), Section 1.102(a), “The
          vision for the Federal Acquisition System is to deliver on a timely basis the best
          value product or service to the customer, while maintaining the public’s trust and
          fulfilling public policy objectives.” This is accomplished by maximizing the use
          of commercial products and services, promoting competition, etc. For example,
          FAR Part 7 requires agencies to perform acquisition planning and conduct market
          research for all acquisitions. FAR Part 10 requires that agencies conduct market
          research appropriate to the circumstances, while FAR Part 6 requires that, with
          certain limited exceptions, the government promote and provide for full and open
          competition when awarding government contracts.

          The U.S. Government Accountability Office (GAO) has reported that in recent
          years, Federal agencies have been making greater use of interagency contracting.
          An agency can enter into an interagency agreement (IAG) with a servicing agency
          to conduct the acquisition on its behalf. EPA defines an IAG as a written
          agreement between Federal agencies under which goods or services are provided
          on a reimbursable basis. An IAG can take a variety of forms, including an IAC
          where EPA uses a contract awarded by another Federal agency, or an agreement
          where another Federal agency uses its staff to provide services to EPA. EPA does
          not uniquely identify IACs from other IAGs, and considers these procurements to
          be IAGs.

          EPA uses several statutory authorities for entering into IAGs. The Economy Act
          is the primary authority for EPA to enter into IAGs with other Federal agencies.
          The Economy Act is designed to further economy and efficiency in government,
          and allows Federal agencies with greater capabilities to provide goods or services
          for other agencies with less experience. For IAGs that cite the Economy Act, a
          Determination and Finding is prepared and signed by the Office of Acquisition


                                           1

Management (OAM) to ensure that (1) the project is not being duplicated by
contractors, (2) the project is in the best interest of government, and (3) the
supplies or services cannot be obtained as conveniently or economically by
contracting with a private source. Other statutory authorities EPA uses include
the Information Technology Management Reform Act and the Government
Management Reform Act.

EPA has delegated authority to the Grants Administration Division (GAD) to
enter into and execute IAGs for the Agency. GAD develops and implements
Agency-wide administrative policy and procedures for IAGs, including training
for IAG managers. During the course of our review, EPA issued an Order
regarding no cost amendments, such as a change of project officers (POs), as well
as processing invoices and closing out of interagency agreements. GAD also
reviews and approves all EPA agreements or amendments that originate in
headquarters and that involve payment or receipt of funds. For IAGs originating
in EPA regional offices, regional management designates the unit within the
regional office that is responsible for conducting administrative and financial
review and management of IAGs.

EPA designates POs to provide technical and managerial oversight of IAGs. POs
prepare a Decision Memorandum (DM), which documents the program office’s
reasons to use an IAG. They also negotiate the terms of the IAG, develop a
Project Work Plan, manage and evaluate performance, approve payments, and
assist GAD in closing out the agreements.

GAO designated management of interagency contracting a Government-wide
high-risk area in 2005. GAO cited a number of factors that make these types of
contracts high-risk, including (1) their rapid growth in popularity, along with their
administration and use by some agencies that have limited expertise with this
contracting method; and (2) their contribution to a much more complex
procurement environment, in which accountability has not always been clearly
established.

The Office of Management and Budget has also taken an interest in interagency
contracting. In November 2005, the office established a working group to
improve the management and use of IACs. The office also began collecting
information on agencies’ use of these vehicles. For purposes of the Office of
Management and Budget’s data collection efforts, the office included the
following as IACs:

   •	 A Government-wide acquisition contract, as defined in the FAR 2.101;
   •	 A multi-agency contract as defined in FAR 2.101;
   •	 A blanket purchase agreement on the Multiple Award Schedules for use
      by multiple agencies; or
   •	 Other indefinite delivery vehicles with anticipated use by external agencies.




                                  2

Noteworthy Achievements
         In recognition of the importance of strengthening the IAG management process to
         meet the goals and objectives of EPA’s strategic plan, EPA issued an order during
         the course of this review regarding no cost amendments, processing invoices, and
         closing out of interagency agreements. This policy includes specific requirements
         to ensure that IAGs are effectively managed. In several cases that we reviewed,
         POs received detailed cost information to support approval of invoices. This is
         noteworthy since, in the past, EPA expressed concern that POs did not have
         detailed cost information to approve invoices timely. Further, the underlying
         contracts, task orders, or programmatic information we obtained indicated that the
         statements of work between EPA and the servicing agencies were within the
         scope of the underlying contracts.

Scope and Methodology
         We conducted our audit from June 2006 through October 2006 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. We selected a judgmental sample of 10 IACs where EPA paid funds to
         another agency to obtain goods or services under their contract. These 10
         Funds-Out IACs were selected from an estimated universe of 157 awarded by
         GAD and EPA regional offices via an interagency agreement. Work ordered
         under the 10 IACs we sampled was valued at $62.9 million, while the universe
         was valued at $178.8 million. One of the procurements selected, valued at
         $2.4 million, did not meet our definition of an IAC and was discarded from our
         sample. The IACs selected were awarded by EPA headquarters and EPA Regions
         1 and 6. We reviewed both the official file maintained by the grants office that
         awarded the IAC as well as the PO file. We interviewed the PO for each IAC in
         our sample, and also interviewed Grants Specialists and OAM staff. Appendix A
         provides further details on our scope and methodology.

         We have not previously reported on the Agency’s use of IACs, but have issued
         reports regarding EPA’s use of IAGs. In June 2001, we issued a report entitled
         Superfund Interagency Agreements, Report No. 2001-P-00011. In September
         2000, we issued a report entitled Follow-Up on Headquarters Interagency
         Agreements, Report No. 2000-P-0029. That report had followed up on findings in
         our March 1995 report, Interagency Agreements: Off-Loading at EPA
         Headquarters, Report No. E1FMG4-13-0061-5400051.




                                          3

                                   Chapter 2
   Interagency Agreements to Use Other Agencies’
         Contracts Need Additional Oversight
         EPA program offices often initiated IACs without conducting adequate cost
         reasonableness determinations, or assessing whether EPA’s in-house acquisition
         staff should acquire the services or products for them. This occurred because POs
         preferred the speed and convenience of IACs. Because EPA provided limited
         oversight, inadequate training, and insufficient guidance, program offices used
         IACs without determining if the contracts provided the best value. As a result,
         despite some improvements, EPA lacks assurances that its IACs were an efficient
         approach, considering time and cost. An efficient approach is required by EPA
         guidance. With improved procedures, EPA could have acquired some of the
         services it needed at less cost.

Some IACs Lack Cost Reasonableness Determinations
         For six of the nine procurements we reviewed, cost reasonableness determinations
         were not adequately performed before using an IAC. EPA program offices can
         use an IAG if it is an efficient approach, considering both time and cost. EPA
         requires that program offices show that the cost of the proposed work is
         reasonable, considering efficiency, based on an Independent Government Cost
         Estimate (IGCE) or other appropriate cost information. These cost determinations
         are to be documented in the program office file and summarized in the decision
         memorandum.

         Table 2-1: Procurements With Inadequate Cost Reasonableness Determinations
                                             OIG Analysis                               Project Total
           1.   No IGCE developed. No alternatives identified to compare costs.          $3.8 million
           2.   The DM stated costs were determined reasonable based on                  $1.5 million
                information developed by PO. No documentation existed to support
                this statement.
           3.   No DM on file.                                                           $7.4 million
           4.   The cost was determined reasonable by comparing service fees            $16.7 million
                charged by two servicing agencies. The total cost of the project was
                not considered.
           5.   The DM justified the contract by indicating the servicing agency        $10.6 million
                requires its contractors to charge competitive labor rates. The total
                cost of the project was not considered.
           6.   The DM indicated costs were reasonable because the servicing             $4.2 million
                agency awarded its contracts competitively, and cost reasonableness
                was determined then. The cost of the work required by EPA was not
                considered.
         Source: EPA decision memoranda, PO files, and interviews with POs. “Project Total” represents
         value at time sample was selected.




                                                 4
Alternatives Not Always Identified
          Agency guidance requires POs to consider alternatives before deciding to enter
          into an interagency agreement. This consideration is needed to ensure that the
          procurement method used provides the best value to the government. It has been
          a longstanding goal of Federal contracting to promote competition as a means of
          saving money. Discussions with the POs and a review of the DMs disclosed that
          POs did not adequately determine if there were other alternatives available in five
          of the nine IACs we reviewed.

          Table 2-2: Procurements with Inadequate Consideration of Alternatives
                                                          OIG Analysis
              1.     No market research conducted to identify alternatives. The original IAC was awarded
                     in 1994. Because the program office was concerned about program disruption, it
                     renewed the IAC with the same serving agency in 2000 and 2005.
              2.     DM indicated regional office initiating this procurement considered several other
                     vendors, but concluded they lacked the needed expertise. Documentation was not
                     available to support this statement. The purpose of this procurement was to obtain
                     photocopying, mailroom, and shipping support for an EPA regional office. While the
                     DM considered these vendors unqualified, other Federal agencies and EPA offices
                     obtained similar services from the same vendors.
              3.     The program office specified it wanted to use a Government-wide acquisition contract,
                     but did not indicate why. DM did not address why the services could not be acquired
                     directly by EPA’s contracting staff. The Task Order was awarded to the incumbent.
              4.     No DM was on file justifying the use of an IAC.
              5.     DM did not address why the services could not be acquired directly by EPA’s
                     contracting staff. A portion of these services were obtained from a vendor that had
                     previously performed similar services for EPA.
          Source: EPA decision memoranda, PO files, and interviews with POs


IACs Chosen for Speed and Convenience
          Some POs stated that they prefer the speed and convenience of an IAC rather than
          working with EPA’s contracting staff to acquire services directly. They also
          believed that acquiring services through a traditional EPA contract is labor-
          intensive and can take several extra months, while using an IAC can take a matter
          of weeks. The ease of entering into an IAC contributed to the inadequate cost
          reasonableness determinations. For example, project officers believed cost
          reasonableness assessments were unnecessary because the servicing agency
          awarded its contract on a competitive basis, or because contractors are required to
          charge competitive rates. We disagree. EPA needs to evaluate the reasonableness
          of the total cost of the proposed work requested by EPA under an IAC, as well as
          use its own IGCE as a basis for determining cost reasonableness under different
          alternatives.

          Servicing agencies market the speed and convenience of IACs to potential clients.
          For example, the U.S. Department of the Treasury (Treasury) advertises that its




                                                 5

                 Franchise Fund1 offers the service Federal managers need “with the speed,
                 autonomy, and convenience” they deserve. Conversely, the convenience and
                 autonomy of IACs also increase risk. For example, an EPA contract can last for
                 up to 5 years, after which a new contract must be awarded if additional work is
                 needed. For two of the nine IACs we reviewed, one had been in place for 7 years,
                 and the other had been in place 12 years.

Impacts of IAC Speed and Convenience
                 The speed and convenience of IACs has an associated cost. EPA is generally
                 charged a fee when using these contracts. For the IACs we reviewed, the fees
                 ranged from no fee to 6.7 percent, and there was often little or no indication that
                 EPA’s POs considered using in-house contracting to avoid paying the servicing
                 agency a fee.

                 IACs have limited oversight. The decision to enter into an IAC is made in the
                 program office. Once that decision is made, GAD’s role is primarily an
                 administrative function. GAD does not verify the accuracy and completeness of
                 the statements made in DMs. GAD does conduct periodic reviews of IACs to
                 ensure each element of the DM has been addressed, but does not review the
                 documentation supporting the statements made in the DM.

                 In addition, POs have not been required to provide supporting documentation for
                 their DMs. EPA guidance only requires the DM to include a summary of a
                 detailed cost reasonableness determination that is maintained in the program
                 office. Cost reasonableness assessment summaries in the DMs were often broad
                 and vague, and in several cases there was little or no evidence of the cost
                 reasonableness assessment in the project file.

IAC Guidance and Training Limited
                 EPA has developed guidance and training on how to manage the risks of IAGs as
                 a whole, but limited guidance exists on managing the risks of IACs. Additional
                 guidance and training could help POs manage the risks associated with IACs.

                 The training that GAD provided to POs who manage IACs has historically
                 focused on managing grants and assistance agreements. Several of the POs we
                 interviewed stated that the required training provided by EPA does not adequately
                 prepare them to properly oversee their IACs. They consider the training to be a
                 general overview of IAGs, rather than a “how to.” For example, although GAD
                 guidance requires POs to conduct a cost reasonableness assessment, the guidance
                 neither trains POs on how to conduct such assessments, nor how to develop an
                 IGCE. Recently, GAD separated its previous training course into a course for
1
 Franchise Funds were authorized by the Government Management Reform Act of 1994, and created to provide
common support services required by many Federal agencies. Treasury advertises its Franchise Funds to other
Federal agencies through promotional materials, such as those found on the Website advertising these services.


                                                        6

                 grants and a separate course for interagency agreements. Even with this change,
                 many POs managing IACs still consider this training inadequate.

                 OAM establishes the policies, procedures, and operations of EPA’s contracts
                 management program, and requires staff who manage contracts to attend
                 Contracting Officer Representative training. This training is designed to establish
                 the foundation needed to effectively manage contracts. As of October 2005, all
                 Contracting Officer Representatives at civilian agencies must obtain 40 hours of
                 continuous learning every 2 years to keep their certification current. Some
                 servicing agencies require EPA POs to be designated as a Contracting Officer
                 Representative. GAD needs to require POs of IACs to attend training similar to
                 that which is required of Contracting Officer Representatives.

                 We reviewed the Performance Appraisal and Recognition System documents of
                 the POs managing the IACs in our sample, and found these POs were generally
                 not evaluated on how well they managed IACs. GAD recently recognized the
                 importance of holding POs of assistance agreements accountable for their
                 performance. To accomplish this, GAD developed guidance on formulating
                 performance standards for these POs. Similar action needs to be taken to increase
                 accountability for POs of IACs.

Unnecessary IACs Cost EPA Money
                 Cost savings are possible by acquiring services directly through EPA contracts
                 staff rather than entering into IACs and paying fees to other Federal agencies. For
                 example, one EPA regional office contracted for personnel to operate its Mail,
                 Copy, and Shipping Department through an IAC with Treasury. Had the regional
                 office acquired these services directly, it could have saved almost $217,000. The
                 IAC has been in place for 7 years, and we calculated costs savings of
                 approximately $31,000 per year. This represents nearly 13 percent of the cost
                 incurred through Fiscal Year 2006.

                 Treasury awarded the task order for EPA’s mailroom services to a large
                 temporary help services company, and charged the regional office a service fee of
                 almost 7 percent for use of its contract. EPA’s DM stated that “other agencies
                 and vendors considered lacked the expertise required to perform these duties.”
                 One source that the regional office considered unqualified was NISH,2 one of two
                 central nonprofit agencies used by the Javits-Wagner-O’Day program.3 Several
                 other EPA offices and Federal agencies acquired similar services through NISH.
                 Had the regional office acquired these services directly through nonprofit
                 agencies administered by the Javits-Wagner-O’Day program rather than entering
                 into an IAC with Treasury, it would have saved money.

2
 NISH is no longer an acronym, but at one point stood for the National Industries for the Severely Handicapped.
3
 The Javits-Wagner-O’Day program provides employment opportunities for over 45,000 Americans with severe
disabilities. The program orchestrates Government purchases of products and services provided by nonprofit
agencies employing disabled individuals. The program recently changed its name to AbilityOne.


                                                        7

Interagency Contract Inappropriately Awarded
          EPA’s Office of Pollution Prevention and Toxics inappropriately entered into an
          IAC with the U.S. Department of Energy’s (DOE’s) Oak Ridge National
          Laboratory to obtain risk assessments. The laboratory is a Federally Funded
          Research and Development Center that provides other Federal agencies highly
          specialized DOE services and technical expertise. According to FAR 35.017, a
          Federally Funded Research and Development Center may perform work for other
          agencies when the work is not otherwise available from the private sector. These
          requirements are set forth in Federal regulations because it is not the
          Government’s intent that a Federally Funded Research and Development Center
          use its privileged information or access to facilities to compete with the private
          sector.

          The original IAC was awarded in 1994 and renewed in 2000. The program office
          expended $3.4 million to obtain risk assessments under the renewed IAC. In
          2005, the IAC was renewed again with an estimated cost for risk assessments of
          $2 million per year. The Office of Pollution Prevention and Toxics’s justification
          for the IACs indicated that private sector contractors were capable of providing
          the services, but the Oak Ridge National Laboratory was cost effective and had
          highly technical experts on-hand. To corroborate information in the DM, we
          identified existing EPA contracts that provided similar capability at less cost, and
          the PO confirmed that the work acquired through DOE was available from private
          sector contractors. As a result, according to the FAR, the IAC with DOE was
          inappropriate. We estimate that EPA could have saved between 3 and 30 percent
          of the cost of these IACs had the program office procured these services directly.

          It is significant to note that EPA program offices have entered into other IAGs
          with DOE’s Oak Ridge National Laboratory. EPA needs to determine if these
          agreements were also inappropriately awarded.

PO Changes Lack Continuity
          In some cases, new POs that assumed responsibility for ongoing IACs did not
          receive sufficient information from the previous PO to effectively carry out their
          duties. For example, one PO took over an IAC in March 2005, but did not obtain
          the previous PO’s file until we contacted him in June 2006. In another case, the
          PO’s file did not contain the original executed IAC or DM. His file also did not
          contain several amendments to the IAC and many of the invoices processed by
          the previous PO.

Fees Paid to Servicing Agencies Not Identified
          EPA does not collect data on the amount of fees paid to other agencies for IACs.
          For the IACs in our sample, GAD could not provide data on the total cost of fees
          paid to servicing agencies. GAD told us that such information is not collected by


                                           8

         them, and in some cases POs were unaware how much servicing agencies charged
         EPA for the use of IACs. Without such information, EPA cannot effectively
         determine the costs and benefits of interagency contracting.

IAC Services and Processes Improved
         In February 2000, EPA expressed concern that POs did not have detailed cost
         information to approve invoices timely. In several cases we reviewed, POs
         received detailed cost information to support approval of invoices. EPA provides
         POs with an electronic and hardcopy notification when their approval is needed
         for payments. However, these notifications are in summary form, and do not
         provide the cost details POs need to approve invoices. EPA POs often obtain the
         necessary information from the servicing agency and/or contractor. One
         significant exception was noted. For one IAC, EPA did not receive supporting
         cost information from the servicing agency or the contractor for invoices. Despite
         this lack of information, all invoices – totaling over $2 million – were paid. For
         one invoice, the PO noted in an email that EPA had “…received absolutely
         nothing…” in terms of support for payment of invoices, yet he approved the
         invoice based on a recommendation from another staff member knowledgeable
         about the IAC.

         The statements of work reviewed for IACs in our sample were congruent with the
         statements of work between the servicing agency and its contractors providing the
         work to EPA. The underlying contracts, task orders, or programmatic information
         obtained indicated that the statements of work between EPA and the servicing
         agencies were within the scope of the underlying contracts.

         In most cases, EPA POs were satisfied with the services provided under IACs.
         POs stated that the timelines and quality of the services provided by contractors
         met expectations.

Recommendations

         We recommend that the Assistant Administrator for the Office of Administration
         and Resources Management:

         1.	 Provide guidance to project officers for developing IGCEs or other
             appropriate cost information, as well as cost reasonableness assessments.
             These assessments should include an analysis of the fees paid to servicing
             agencies.

         2.	 Ensure GAD requires that the IAG decision memorandum better explains
             why an IAG is more cost effective, and include an evaluation of cost
             reasonableness assessments in GAD’s oversight reviews of IAG management.




                                          9

         3.	 Provide guidance to POs for identifying alternatives to the contracting vehicle
             selected. OAM’s Contracts Management Manual addresses market research
             and should be consulted for guidance.

         4.	 Strengthen the existing training to include how to develop IGCEs or other
             appropriate cost information, conducting cost reasonableness assessments, and
             identifying alternatives.

         5.	 Work with program officials to ensure that PO performance standards reflect
             their responsibilities for managing interagency contracts.

         6.	 Review EPA IACs with Federally Funded Research and Development Centers
             to ensure they were appropriately awarded and develop guidance for program
             offices when considering an IAC with these centers.

         7.	 Emphasize to program offices the importance of maintaining a complete file,
             and providing a copy to the successor Project Officers as required by the
             recently published EPA Order regarding IAGs.

Agency Comment and OIG Evaluation

         The EPA Office of Administration and Resources Management (OARM) agreed
         with all but one of our draft report recommendations. For our second
         recommendation, OARM proposed an alternate action that we believe will
         accomplish the intent of our draft report recommendation. Accordingly, we
         modified this recommendation. OARM elected to defer immediate action on
         some of the recommendations pending the issuance of Government-wide
         guidance by OMB’s Office of Federal Procurement Policy (OFPP). OARM staff
         contacted OFPP and was informed that OFPP expects to issue, within the next
         several months, a guidance document on roles and responsibilities on interagency
         contracting and a model interagency agreement. We recognize the interest in
         interagency contracting by OFPP as a result of the work by both GAO and other
         Federal agency inspectors general. We are pleased that OFPP will soon be
         issuing a guidance document on this important area, and agree with EPA in its
         decision to defer implementation of some corrective actions pending the guidance
         document.




                                          10 

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1        9     Provide guidance to project officers for developing      O        Assistant Administrator,         TBD
                    IGCEs or other appropriate cost information, as                  Office of Administration and
                    well as cost reasonableness assessments. These                    Resources Management
                    assessments should include an analysis of the fees
                    paid to servicing agencies.

     2        9     Ensure GAD requires that the IAG decision                O        Assistant Administrator,         TBD
                    memorandum better explains why an IAG is more                    Office of Administration and
                    cost effective, and include an evaluation of cost                 Resources Management
                    reasonableness assessments in GAD’s oversight
                    reviews of IAG management.

     3       10     Provide guidance to POs for identifying alternatives     O        Assistant Administrator,         TBD
                    to the contracting vehicle selected. OAM’s                       Office of Administration and
                    Contracts Management Manual addresses market                      Resources Management
                    research and should be consulted for guidance.

     4       10     Strengthen the existing training to include how to       O        Assistant Administrator,         TBD
                    develop IGCEs or other appropriate cost                          Office of Administration and
                    information, conducting cost reasonableness                       Resources Management
                    assessments, and identifying alternatives.

     5       10     Work with program officials to ensure that PO            O        Assistant Administrator,         TBD
                    performance standards reflect their responsibilities             Office of Administration and
                    for managing interagency contracts.                               Resources Management

     6       10     Review EPA IACs with Federally Funded Research           O        Assistant Administrator,         TBD
                    and Development Centers to ensure they were                      Office of Administration and
                    appropriately awarded and develop guidance for                    Resources Management
                    program offices when considering an IAC with
                    these centers.

     7       10     Emphasize to program offices the importance of           O        Assistant Administrator,         TBD
                    maintaining a complete file, and providing a copy to             Office of Administration and
                    the successor Project Officers as required by the                 Resources Management
                    recently published EPA Order regarding IAGs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 11 

                                                                                   Appendix A

                 Details on Scope and Methodology
We reviewed various IAG guidance documents, including IAG Policy documents, the FAR,
Grants Policy Issuances, EPA Orders, the IAG Policy and Procedures Compendium, the IGCE
Guide prepared by OAM, and the Office of Federal Procurement Policy’s Policy Letter on new
training and requirements for Government-wide contracting personnel.

We reviewed the files for a judgmental sample of 10 Funds-Out IACs open in either Fiscal Year
2005 or 2006 (see Table A-1). We conducted site visits to GAD headquarters and regional
offices that awarded these IACs. We coordinated with the Office of
                                                                          Table A-1: Sampled
Grants and Debarment to determine if the POs assigned to our sample       Interagency Contracts
were certified as POs. We reviewed the DMs and Determination and
                                                                           DW - 97-93986601
Finding (for Economy Act IACs) to determine whether the decision to        DW - 75-93823701
use an IAC was adequately documented. We reviewed cost                     DW - 89-93882001
reasonableness determinations, and any alternatives to the vehicle         DW - 96-93890501
                                                                           DW - 47-92220701
selected identified in the DM. We reviewed all available underlying        DW - 13-93882401
contracts, task orders, or programmatic information for the IACs in our    DW - 96-94030701 *
sample to determine whether the statement of work for the IAC was          DW - 47-94009901
                                                                           DW - 20-95031301
within the scope of the underlying contract awarded by the servicing       DW - 47-95036401
agency.
                                                                             * Discarded because
                                                                             it did not meet the
We also reviewed invoices billed to determine the fees charged by the        definition of an IAG.
servicing agency and whether the invoices were adequately supported by       Source: EPA’s GAD
cost details. We reviewed the GAD protocol used and the results of a
Comprehensive Grants Management Review conducted by GAD. For one IAC, we reviewed
EPA’s database of existing contracts to determine if there were EPA contracts that contained a
similar statement of work. We confirmed this information with EPA Contracting Officers, and
reviewed cost information for these existing contracts to determine whether potential cost
savings could have been realized had EPA acquired the services directly. We reviewed
Performance Appraisal and Recognition System agreements to determine if it included PO
responsibilities for managing IACs.

Internal Control Structure
In planning and performing this audit, we reviewed management controls related to our audit
objective. This included EPA’s policy and procedures for administering and managing the IACs
issued by the EPA Office of Grants and Debarment. As part of this review, we examined EPA’s
Fiscal Year 2005 Federal Managers’ Financial Integrity Act Annual Assurance Letters issued by
the EPA Assistant Administrator for the Office of Administration and Resources Management.
In April 2005, the Agency conducted an internal IAG file review and reviewed open and closed
IAGs in IGMS; and reviewed PO designations, training, and certifications. The review noted
potential vulnerabilities in the IAG files and close-out of outstanding open IAGs. The Agency
has begun to address the issues to ensure that all files are in compliance with Agency guidance
and policy and that open IAGs are monitored and closed out within required timeframes.


                                               12 

                                                                            Appendix B

              EPA Response to Draft Report

MEMORANDUM

SUBJECT:       Draft Audit Report:
               Interagency Agreements to Use Other Agencies’ Contracts
               Need Additional Oversight
               (Assignment No. 2006-001052, February 14, 2007)

FROM:          Luis A. Luna
               Assistant Administrator

TO:            Carl A. Jannetti
               Director, Contract Audits

       Thank you for the opportunity to provide our comments and perspectives on the
Draft Audit Report. I am pleased that the Report recognizes the steps EPA has taken to
improve its administration of interagency agreements (IAGs). This includes the recent
issuance of EPA Order 1610, which will strengthen the Agency’s management of IAG
no-cost amendments, invoices and close-out. I am also pleased with the Report’s
conclusions about the timely, quality work performed under interagency contracts
supported by IAGs and the availability of sufficient information for IAG invoice
approval.

        The Report contains a number of other findings regarding the oversight of IAGs
involving interagency contracts. Specifically, it finds that in some cases the Agency may
have entered into some of these IAGs without conducting cost reasonableness
assessments, or identifying alternatives, such as determining whether EPA’s in-house
acquisition staff could acquire the services/products at a lower cost. Additionally, the
Report concludes that newly assigned project officers to existing interagency contracts
did not always receive a complete file for effective contract management and EPA did
not collect data on the interagency contract fees paid to other agencies.

       The Report presents seven recommendations to address these findings. OARM’s
response to these recommendations is presented below.


Recommendation #1: Provide guidance to project officers for developing appropriate
cost information, as well as cost reasonableness assessments, including an analysis of the
fees paid to servicing agencies.




                                         13 

OARM Response: OARM agrees with this recommendation, but will defer immediate
action pending the issuance of government-wide guidance by the Office of Federal
Procurement Policy (OFPP). OARM staff has contacted OFPP and has been informed
that they expect to issue, within the next several months, a guidance document on roles
and responsibilities on interagency contracting and a model interagency agreement.

Recommendation #2: Ensure that the Grants Administration Division (GAD) reviews
cost reasonableness assessments.

OARM Response: OARM disagrees with this recommendation. GAD should not
routinely review cost reasonableness assessments, since the preparation and review of
those assessments is a program office responsibility. However, GAD will: (1) require the
IAG decision memorandum submitted by program offices to better explain why an IAG
is more cost-effective; (2) include an evaluation of cost reasonableness assessments in
GAD’s oversight reviews of IAG management; and (3) incorporate, as appropriate, the
expected OFPP guidance in the Agency’s IAG procedures.

Recommendation #3: Provide guidance to Project Officers (POs) for identifying
alternatives to an IAG.

OARM Response: OARM agrees with this recommendation, but will defer immediate
action pending issuance of the OFPP guidance.

Recommendation #4: Strengthen existing training to include how to develop appropriate
cost information, conduct cost reasonableness assessments, and identify alternatives.

OARM Response: OARM agrees with this recommendation, but will defer making
major training changes pending issuance of the OFPP guidance.

Recommendation #5: Work with program officials to ensure that PO performance
standards reflect their responsibilities for managing IAGs.

OARM Response: OARM agrees with this recommendation and will work with Senior
Resource Officials to ensure that IAG responsibilities are referenced, as appropriate, in
PO performance agreements as part of the 2008 Performance Assessment Rating System
process.

Recommendation #6: Review EPA IAGs with Federally Funded Research and
Development Centers to ensure they were appropriately awarded and develop guidance
for program offices when considering an IAG with these centers.

OARM Response: OARM agrees with this recommendation and will work with the
Office of General Counsel to develop the necessary guidance.




                                        14 

Recommendation #7: Emphasize to program offices the importance of maintaining a
complete file, and providing a copy to their successor as required by the recently
published EPA Order.

OARM Response: The Office of Grants and Debarment (OGD) will continue to
emphasize the importance of this requirement in its project officer training on EPA Order
1610.

       Thank you for the opportunity to comment on the Report. If you have any
questions about these comments, please contact Howard Corcoran, Director, OGD, at
(202) 564-1903.

cc: 	Senior Resource Officials
     Grants Management Officers
     Junior Resource Officials
     Richard Kuhlman
     Steve Pressman
     Richard Feldman
     Kenneth Redden
     Chuck Gherardini
     Bruce Binder
     Jeanne Conklin
     John Nolan
     Laurice Jones




                                       15 

                                                                                Appendix C

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Director, Office of Grants and Debarment
Director, Grants Administration Division
Director, Office of Regional Operations
Regional Administrator, Region 1
Regional Administrator, Region 6
Agency Followup Official
Agency Followup Coordinator
Audit Followup Coordinator, Office of Administration and Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                           16 

